No. 19-1212

 

 

IN THE
Supreme Court of the Anited States

CHAD WOLF,
ACTING SECRETARY OF HOMELAND SECURITY, ET AL.,
Petitioners,
Vv.

INNOVATION LAW LaB, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit

BRIEF OF PROFESSORS OF CIVIL PROCEDURE
AND FEDERAL COURTS AS AMICI CURIAE IN
SUPPORT OF R ESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,701 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 20, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
